March 27, 2001

JOHN E. POTTER
CHIEF OPERATING OFFICER
 AND EXECUTIVE VICE PRESIDENT

SUBJECT:	 Audit Report - Postal Service’s Ability to Meet Requirements of an
          Electronic Commerce Mailer (Report Number MK-AR-01-001)

This report presents the results of our audit of the Postal Service’s efforts to address
one of its most significant future challenges--how to serve the mailing needs of
electronic commerce companies that market products through the Internet (Project
Number 00RA035RG000).

We found that the Postal Service had met the mailing requirements of one of its largest
electronic commerce mailers (the Company). However, regulatory constraints
prevented the Postal Service from quickly meeting the Company’s requests for discount
rates and a deferred payment option. As a result, the company signed a three-year
agreement with one of the Postal Service's primary competitors to handle a share of its
package delivery business that the Postal Service expected to receive. Postal Service
officials estimate they may lose about $25 to $40 million annually in future revenue
because of their inability to meet the Company’s requests. Since this report did not
contain recommendations, management's comments were not required. Thus,
management elected not to provide comments.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Larry Chisley, director, Marketing, or me at
(703) 248-2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment

cc: John R. Gunnels
Postal Service’s Ability to                       MK-AR-01-001
 Meet Requirements of an
 Electronic Commerce Mailer

                              TABLE OF CONTENTS

Executive Summary                                    i

Part I 


Introduction 
                                       1

   Background                                        1
   Objectives, Scope, and Methodology                2

   Prior Audit Coverage                              3


Part II 


Audit Results                                        4


   Service Effectiveness                             4

   Regulatory Constraints                            5

Postal Service’s Ability to                                                                       MK-AR-01-001
 Meet Requirements of an
 Electronic Commerce Mailer

                                     EXECUTIVE SUMMARY
Introduction 	                  This audit is one in a series of audits we plan to conduct to
                                determine whether the Postal Service has the flexibility to
                                compete in the electronic commerce (eCommerce) parcel
                                delivery market, and the infrastructure and operational
                                capacity to meet the mailing requirements of eCommerce
                                mailers. This report presents the results of our audit of the
                                Postal Service’s ability to meet the mailing requirements of
                                one of its largest eCommerce mailers, referred to
                                throughout this report as the Company. Revenues from the
                                Company were expected to exceed $100 million in FY 2000.

Results in Brief 	              Although the Postal Service was able to meet the basic
                                mailing requirements of the Company, regulatory
                                constraints prevented Postal Service officials from quickly
                                meeting Company officials’ requests for discount rates and
                                a deferred payment option.

                                The Postal Service wanted to provide discount rates as part
                                of a negotiated service agreement;1 however, it needed the
                                required approval by the Postal Rate Commission, which
                                could have taken up to 10 months. The Company was not
                                willing to go through the process of submitting a request to
                                the Postal Rate Commission.

                                The Postal Service was also unable to meet the Company’s
                                request for a deferred payment option. The Domestic Mail
                                Classification Schedule requires prepayment of postage,
                                and any changes to that schedule would also require Postal
                                Rate Commission approval. After studying the deferred
                                payment issue, the Postal Service also decided it could not
                                make a business case for obtaining approval from the
                                Postal Rate Commission. A Company official told the
                                Postal Service that the lack of a deferred payment option
                                was unacceptable and that renegotiation with competitive
                                carriers would be inevitable.




1
 Negotiated service agreements are agreements between the Postal Service and an individual mailer that would
provide the mailer with customer-specific rates.




                                                       i
Postal Service’s Ability to                                                       MK-AR-01-001
 Meet Requirements of an
 Electronic Commerce Mailer

                              Due to these factors, the Company signed a three-year
                              agreement with a Postal Service competitor to handle a
                              share of its package delivery business the Postal Service
                              expected to receive. As a result, Postal Service officials
                              estimate the Postal Service will lose $25 to $40 million in
                              future revenues.




                                                ii
The Postal Service’s Ability                                                                     MK-AR-01-001
 to Meet Requirements of an
 Electronic Commerce Mailer

                                           INTRODUCTION
Background                      The Postal Service projects that electronic alternatives to
                                the mail, such as online bill payment and email
                                correspondence, will cause First-Class Mail volumes to
                                decline at an average annual rate of 2.5 percent from fiscal
                                year (FY) 2003 to FY 2008. The Postal Service also
                                believes that growth in the package delivery market may
                                partially offset declining First-Class Mail volumes. This
                                belief is based on their projection that Internet purchasing
                                will grow to $108 billion by the year 2003, and shipping
                                revenues from those Internet purchases will be more than
                                $9 billion. United Parcel Service delivers about 55 percent
                                of all merchandise ordered on the Internet. The Postal
                                Service has the second-largest share of the eCommerce
                                delivery market, with a 32 percent market share; while
                                Federal Express is third with 10 percent.

                                The Company, one of the largest online retailers, primarily
                                ships Priority Mail, First-Class Mail, and international
                                surface parcels through the Postal Service. The Company
                                originally distributed products from a single distribution
                                center. Currently it ships products from several distribution
                                centers throughout the United States. According to
                                Company officials, the Company shipped about 60 percent
                                of its orders through the Postal Service and almost 40
                                percent through the United Parcel Service. Postal Service
                                revenues from the Company totaled over $65 million in
                                FY 1999 and were projected to exceed $100 million in
                                FY 2000.

Postal Rate                     The Postal Reorganization Act of 1971 established the
Commission                      Postal Rate Commission as the agency responsible for
                                reviewing and recommending Postal Service rates. No rate
                                for a domestic postal product may be established or
                                changed without a recommendation from the Postal Rate
                                Commission and approval by the Postal Service's
                                Governors.2 Classification changes are often requested at
                                the same time that changes are requested in postal rates.

                                Commission rules for new rate requests require testimony
                                and supporting documentation explaining the need for the
                                new rate and how the rate proposal was developed. The
2
  There are nine Governors appointed by the President with the advice and consent of the Senate. The nine
Governors, plus the postmaster general and deputy postmaster general, make up the Board of Governors. While the
Board of Governors proposes new rates, the nine Governors alone approve rate and classification changes that are
recommended by the Postal Rate Commission.


                                                       1
The Postal Service’s Ability                                                        MK-AR-01-001
 to Meet Requirements of an
 Electronic Commerce Mailer

                               Postal Rate Commission has ten months in which to
                               recommend a decision to the Board of Governors. During
                               the ten-months, the Postal Rate Commission conducts open
                               hearings through administrative trial proceedings. At these
                               hearings, the Postal Service answers questions from
                               various interested parties such as customers, competitors,
                               and consumer advocates. After considering all of the
                               evidence, the Postal Rate Commission issues an opinion
                               and recommended actions to the Governors.

Objective, Scope, and          Our audit objective was to determine whether the Postal
Methodology                    Service had the flexibility to compete in the eCommerce
                               parcel delivery market. We accomplished our objective by
                               reviewing the Postal Service’s relationship with one of its
                               largest eCommerce customers, referred to as “the
                               Company” in this report.

                               We selected the Company for review because it was one of
                               the largest Internet retailers, projected to generate over
                               $100 million in revenue for the Postal Service in FY 2000.
                               This report presents the results of that audit and is the first
                               of two reports we plan to issue.

                               To accomplish our audit objective we visited Postal Service
                               mail processing facilities near the Company’s distribution
                               centers in Seattle, Washington; New Castle, Delaware;
                               McDonough, Georgia; and Fernley, Nevada. At those
                               locations we interviewed various Postal Service personnel
                               including:

                                   •	 Business mail entry unit personnel responsible for
                                      accepting the mail.

                                   •	 Processing and distribution center and air mail
                                      center managers responsible for processing the
                                      Company’s mail.

                                   •	 Transportation and network managers responsible
                                      for moving the Company’s mail.

                                   •	 Local postmasters responsible for the account.




                                                 2
The Postal Service’s Ability                                                    MK-AR-01-001
 to Meet Requirements of an
 Electronic Commerce Mailer

                               We interviewed Postal Service Sales personnel and
                               reviewed all Company information recorded in the Postal
                               Service’s Account Management System. We also
                               interviewed the national account manager for the Company
                               and examined reports and records related to the Company.

                               We did not interview Company officials because they were
                               in on-going negotiations with Postal Service officials.

                               Our audit was conducted between February 2000 and
                               February 2001 in accordance with generally accepted
                               government auditing standards, and included such tests of
                               internal controls as were considered necessary under the
                               circumstances.

Prior Audit Coverage           There was no prior audit work in this area.




                                                 3
The Postal Service’s Ability                                                                        MK-AR-01-001
 to Meet Requirements of an
 Electronic Commerce Mailer

                                           AUDIT RESULTS
                                     Although the Postal Service was able to meet the basic
                                     mailing requirements of the Company, regulatory
                                     constraints hampered the Postal Service's ability to meet
                                     the Company's request for discounted rates and a deferred
                                     payment option. Postal Service officials estimate the Postal
                                     Service may lose about $25 to $40 million in future revenue
                                     because it cannot provide the Company with customized
                                     rates or a deferred payment option in a timely manner.3
                                     This loss in potential revenue is expected to occur because
                                     the Company signed a three-year agreement with a primary
                                     competitor to handle a share of its package delivery
                                     business that the Postal Service expected to receive.

    Service Effectiveness            The Postal Service met the Company's basic mailing
                                     requirements and considered the Company to be the
                                     cornerstone of its pursuit of eCommerce customers.
                                     Postal Service officials took extra steps to provide service
                                     to the Company, including:

                                         •	 Dedicating ground and air transportation.

                                         •	 Providing on-site mail transport equipment.

                                         •	 Providing customized Priority Mail packaging.

                                         •	 Providing direct access to senior Postal Service
                                            management.

                                     In addition, each Postal Service district serving the
                                     Company established an account team that included district
                                     and area representatives from Network Operations,
                                     Transportation, Manifesting, Acceptance and Processing,
                                     Marketing, and Sales. Also, because of the high visibility of
                                     the Company’s account, a headquarters, national account
                                     team was established to interact with top executives from
                                     the Company. Team members included the chief operating
                                     officer, chief financial officer, treasurer, senior vice
                                     presidents from Sales and Operations, and the vice
                                     president of eCommerce.




3
 There is no guarantee that if the Postal Service had provided the Company with customized rates or a deferred
payment option, competitors could not have met or exceeded services offered by the Postal Service.


                                                        4
The Postal Service’s Ability                                                                 MK-AR-01-001
 to Meet Requirements of an
 Electronic Commerce Mailer

    Regulatory Constraints 	 The Postal Service could not accommodate the Company’s
                             requests for discount rates and a deferred payment plan in
                             a timely manner. Under current regulations, the Postal
                             Service is required to request changes to rates and
                             classifications through the Postal Rate Commission, which
                             could take up to ten months. Because the Company was
                             not willing to wait for Postal Rate Commission approval, it
                             signed a three-year agreement with another package
                             delivery company. As a result, the Postal Service may lose
                             $25 to $40 million in future revenue.

    Discount Rates 	                         Company officials told the Postal Service that it wanted
                                             discount rates based on mail volume and mailing
                                             efficiencies that would lower the Postal Service’s costs.
                                             Further, Company officials told the Postal Service that
                                             receiving the discounts was a requirement for the Company
                                             to continue doing business with the Postal Service.
                                             Company officials indicated that delays in providing reduced
                                             rates could result in a loss of their business. They also
                                             indicated they would be willing to make any sortation4 or
                                             work-sharing efforts to receive the discounted rates.

                                             Postal Service officials wanted to offer customized rates as
                                             part of a negotiated service agreement, which required
                                             approval of the Postal Rate Commission. Postal Service
                                             officials had completed a checklist for customers interested
                                             in proposing a negotiated service agreement and were
                                             working on a process for reviewing and submitting
                                             negotiated service agreement proposals to the Postal Rate
                                             Commission. However, because the process of obtaining
                                             Postal Rate Commission approval could take up to ten
                                             months, the Company decided to pursue alternatives
                                             outside of the Postal Service.

    Deferred Payment Option 	 The Postal Service was also unable to meet the Company's
                              request for a deferred payment option. Company officials
                              requested a deferred payment option that would have
                              allowed the Company to defer payments anywhere from 30
                              to 60 days after the actual mailing. However, because the
                              Domestic Mail Classification Schedule requires prepayment
                              of postage, the Postal Service would have been required to
                              seek approval from the Postal Rate Commission.




4
    The distribution or separation of mail to route it to its final delivery points.


                                                                  5
The Postal Service’s Ability                                                     MK-AR-01-001
 to Meet Requirements of an
 Electronic Commerce Mailer

                               Postal Service officials wanted to test a 15-day deferred
                               payment option with the Company, however, they were
                               advised by the Postal Service General Counsel that under
                               Title 39 of the United States Code, the Postal Rate
                               Commission would have to approve such a modification to
                               the schedule. The General Counsel also advised that giving
                               a deferred payment option to the Company prior to Postal
                               Rate Commission approval carried a high degree of risk of
                               being found premature and improperly selective, if
                               challenged before the Commission or the courts.

                               Based on the legal opinion provided by the General
                               Counsel, the Postal Service did not test the deferred
                               payment option with the Company. Instead, in conjunction
                               with PriceWaterhouseCoopers, the Postal Service
                               established a cross-functional team to research the
                               prospective costs and benefits associated with offering
                               special credit terms. An August 18, 2000,
                               PriceWaterhouseCoopers report concluded that although a
                               deferred payment option was feasible, they could not
                               document a strong business case justifying the
                               implementation of such an option. They noted that while a
                               deferred payment option would respond to customer
                               demand and could increase market share, their preliminary
                               financial analysis indicated it was likely a breakeven
                               scenario at best, and would likely constitute suboptimal use
                               of limited capital resources.

                               The cross-functional team and PriceWaterhouseCoopers
                               recommended that further action should be deferred until
                               product management groups for select mail products
                               presented business cases and were willing to accept the
                               responsibility for the financial impact of providing a deferred
                               payment option to Postal Service customers.

                               The Company’s chief operations officer informed the Postal
                               Service that the lack of a deferred payment option was
                               unacceptable and that renegotiation with competitive
                               carriers was inevitable. Subsequently, the Company signed
                               an agreement with a competitor of the Postal Service, which
                               is expected to divert $25 to $40 million in future revenue.

                               Under existing regulatory constraints, we believe the Postal
                               Service, by establishing negotiated service guidelines, took
                               all actions it could to pursue discount rates. Additionally, we
                               believe the Postal Service’s decision to not offer the



                                              6
The Postal Service’s Ability                                                 MK-AR-01-001
 to Meet Requirements of an
 Electronic Commerce Mailer

                               deferred payment option was reasonable given the results
                               of the deferred payment option studies. Therefore, we have
                               no recommendations concerning discount rates and
                               deferred payments.




                                            7
